National Aeronautics and Space Administration
Office of Inspector General
Washington, DC 20546-0001



                                                         July 29, 2008

TO:                 Associate Administrator for Exploration Systems
                    Program Manager, Constellation Program
                    Project Manager, Extravehicular Activities Systems Project Office

FROM:               Assistant Inspector General for Auditing

SUBJECT:            Audit of NASA’s Pre-Acquisition Planning for the Constellation Space
                    Suit System (Assignment No. A-07-019-00)

The NASA Office of Inspector General is closing the subject assignment. Overall, we
found that the pre-acquisition planning process for the Constellation Space Suit System
(CSSS) was conducted in accordance with NASA procedural requirements. However,
we did identify two issues that warrant management attention and one issue we plan to
address. We noted that weight requirements imposed by Constellation program
management could affect the design, development, cost, and schedule of the CSSS.
However CSSS management is tracking the issue and has given it prioritized attention;
thus, no additional management action is warranted at this time. We also identified a
noncompliance issue that does warrant additional management action. Specifically,
management should ensure that the contract for the CSSS includes the Earned Value
Management clause.

We also identified a potential conflict of interest concerning at least one member of the
CSSS standing review board. 1 We are addressing this issue under our Assignment S-08-
021-00, Review of the Constellation Program’s Standing Review Boards.

We began the audit of CSSS pre-acquisition planning in September 2007 and focused our
review on key elements of the process, specifically, the acquisition approach, design
architecture, cost and schedule plans, contract strategy, and oversight structure. We
evaluated pertinent guidance to gain an understanding of the pre-acquisition planning
process and the Agency’s life-cycle phases and requirements. We conducted work at
Johnson Space Center to interview key personnel within the Extravehicular Activities
(EVA) Systems Project Office (CSSS is one project managed by the EVA Systems
Project Office) and observed the ongoing CSSS development work. We also reviewed




1
    NASA requires space flight projects to establish a standing review board (SRB) to conduct independent
    reviews throughout a project’s life cycle. SRBs assess and report on the project’s technical and
    management approach, schedule, resources, cost, and risk; compliance with Agency guidance; and
    readiness to proceed to the next life-cycle phase.
                                                                                                                   2
the Constellation Program Plan, 2 EVA Systems Project Plan, and the CSSS request for
proposal to ensure compliance with applicable guidance.

We found that pre-acquisition planning for the CSSS acquisition approach, design
architecture, cost and schedule plans, contract strategy, and oversight structure was
conducted in accordance with NASA Procedural Requirements 7120.5D, “NASA Space
Flight Program and Project Management Requirements,” March 06, 2007. Specifically,
the EVA Systems Project Office ensured that

       •   the appropriate acquisition planning meetings were conducted prior to the release
           of the CSSS solicitation;
       •   Constellation Program mission requirements were incorporated into preliminary
           CSSS design;
       •   initial life-cycle cost estimates were completed and risks were adequately
           identified in the development of project schedules;
       •   the contract strategy for CSSS design and development was documented in the
           preliminary Acquisition Plan; and

       •   management established an internal oversight structure in accordance with
           requirements for Category 1 projects. 3

We noted that Constellation program management imposed smaller mass margin
allocations on Constellation projects, systems, and subsystems, including the CSSS. The
smaller mass margin allocations resulted in reduced weight requirements for EVA system
components. Since EVA system components are interdependent, any change in weight of
one EVA system component, may affect other components of the EVA system. The
EVA Systems Project Office is aware of the CSSS weight requirements issue and that
changes could result in increased cost, schedule delays, and slippage in performance
baseline or requirements. Because the EVA Systems Project Office is tracking the
potential CSSS weight requirements issue, has given the issue prioritized attention, and
has a potential action plan in place for the mitigation of associated risks, we are not
making a recommendation on this issue.

We did identify one noncompliance issue during our review of the CSSS request for
proposal. Specifically, the request for proposal did not include or reference the Earned
Value Management 4 clause, NASA Federal Acquisition Regulation Supplement
1852.234-2, which is required by NASA Federal Acquisition Regulation
Supplement 1834.203-70. The clause is important because it mandates a monitoring


2
    The EVA Systems Project is one of six projects under the Constellation Program. The others are the
    Orion crew exploration vehicle, Ares crew and cargo launch vehicles, mission operations, ground
    operations, and the lunar lander.
3
    Projects are classified as Category 1 if the project life-cycle costs are greater than $1 billion, a nuclear
    power source will be used, or the project concerns human space flight.
4
    Earned Value Management is a project management tool effectively integrating the investment scope of
    work with schedule and cost elements for optimum investment planning and control.
                                                                                            3
system for Earned Value Management that meets Federal standards and establishes a
system that generates timely, accurate, reliable, and traceable information of contractor
performance. We immediately notified the EVA Systems Project Office of the omission
and that office agreed to include the clause in the awarded contract. On July 16, 2008,
we followed up with the contracting officer to verify that the clause was included in the
contract awarded on June 12, 2008. The contracting officer stated that the clause was not
included but that he would add it when time permitted. As of the date of this
memorandum, the CSSS contract was under a stop-work order resulting from a protest of
the contract award. We recommend that management track this issue and ensure that the
Earned Value Management clause be added as soon as permissible.

We appreciate the courtesies and cooperation provided to the staff during this review. If
you have questions or would like to discuss this matter further, please contact Mr. Keith
Maddox, Project Manager, Financial and Institutional Management Directorate, at
(256) 544-3914.


       (signed) A. Dahnelle Payson for
Evelyn R. Klemstine

cc:
Director, Johnson Space Center
